NOT RECOMMENDED FOR PUBLICATkC

FILED

Jan 12, 2021
DEBORAH S. HUNT, Clerk

No. 19-2131
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

In re: ADRIENNE BUSH,
Debtor.

ADRIENNE BUSH,
Appellant,
v.

KENNETH A. NATHAN, Trustee,
Appellee.

)
)
)
)
)
)

)
)
)
)

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

)
)
)
)
)
)

ORDER

Before: BOGGS, STRANCH, and BUSH, Circuit Judges.

Adrienne Bush, a pro se Michigan litigant, appeals the district court’s judgment affirming
the bankruptcy court’s May 9, 2019, orders that (1) sustained the trustee’s objection to Bush’s
claimed exemption, (2) denied Bush’s motion to convert her Chapter 7 bankruptcy proceeding to
a Chapter 13 bankruptcy proceeding, and (3) granted the trustee’s motion to compromise an
employment discrimination claim that Bush had filed against her former employer, Lumileds,
LLC. This case has been referred to a panel of the court that, upon examination, unanimously
agrees that oral argument is not needed. See Fed. R. App. P. 34(a).
In May 2016, Bush filed a discrimination suit against Lumileds. In August 2018, while
Bush litigated the discrimination case, she filed a Chapter 7 bankruptcy petition. Bush did not

No. 19-2131
-2-

disclose her discrimination suit in her bankruptcy schedules, in her statement of financial affairs,
or at the creditors’ meeting. The trustee learned of Bush’s discrimination suit—which was then
still pending—in October 2018, when Lumileds’s counsel informed him of it. The trustee offered
to settle the case for $20,000.
In January 2019, Bush filed a motion to convert her Chapter 7 proceeding to a Chapter 13
proceeding; she also amended her schedules. In her amended schedules, Bush disclosed her
discrimination suit and claimed it as an exemption under 11 U.S.C. § 522(d)(ll)(E). The trustee
opposed the motion to convert and objected to the claimed exemption.
In March 2019, the trustee filed amotion to compromise (i.e., settle) Bush’s discrimination
claim against Lumileds, again for $20,000.
The bankruptcy court sustained the trustee’s objection to the claimed exemption, denied
Bush’s motion to convert, and granted the trustee’s motion to compromise. The district court
affirmed all three decisions.
Standard of Review
“We review the bankruptcy court’s decision directly, according no deference to the district
court.” Nat’l Union Fire Ins. v. VP Bldgs., Inc., 606 F.3d 835, 837 (6th Cir. 2010) (quoting PharMor, Inc. v. McKesson Corp., 534 F.3d 502, 504 (6th Cir. 2008)). “The bankruptcy court’s
findings of fact are reviewed for clear error, and questions of law are reviewed de novo.” Id.
(quoting Phar-Mor, 534 F.3d at 504).
Notice of Appeal
The trustee argues that we lack jurisdiction to review Bush’s challenges to the bankruptcy
court’s orders that sustained his objection to Bush’s claimed exemption and denied her motion to
convert her case to a Chapter 13 proceeding because she did not identify these orders in her notice
of appeal to the district court. The trustee relies on Federal Rule of Appellate Procedure 3(c) for
this proposition. But that rule applies only to appeals to circuit courts from district courts. See
Fed. R. App. P. 3(a)(1). Appeals from a bankruptcy court to a district court are governed by
Federal Rule of B ankruptcy Procedure ,8003(a). _See,^e..s,,Fadayiro .v.AmerdquestMx>rtgjCo. -37-1-

No. 19-2131
-3F.3d 920, 922 (7th Cir. 2004). That rule provides that the notice of appeal must “(A) conform
substantially to the appropriate Official Form; (B) be accompanied by the judgment, order, or
decree, or the part of it, being appealed; and (C) be accompanied by the prescribed fee.” Fed. R.
Bankr. P. 8003(a)(3).
Except with respect to the order granting the trustee’s motion to compromise, Bush’s notice
of appeal to the district court did not meet these requirements. Although she arguably satisfied
subsection (C) by deferring her filing fee, she failed to satisfy subsections (A) and (B) with respect
to the other two orders. In particular, Bush’s notice of appeal stated only that she was appealing
the bankruptcy court’s order that granted the trustee’s motion to compromise, and that is the only
order that she attached to her notice to appeal. She did not identify or attach the other orders that
she now seeks to appeal. The district court reviewed all three bankruptcy orders, despite the fact
that Bush did not list all three in her notice of appeal, because “[throughout Bush’s brief, she
ma[de] it clear that she intendfed] to appeal all three of the bankruptcy court orders.” But the fact
remains that Bush failed to comply with the requirements of Rule 8003(a), and the district court
therefore should have considered Bush’s appeal only from the order identified in her notice of
appeal—i.e., the bankruptcy court’s order granting the trustee’s motion to compromise. See, e.g.,
In re Alston, 756 F. App’x 160,162 (3d Cir. 2019) (finding that the debtor waived review of several
bankruptcy court orders because, although he referenced those orders in his brief, he failed to
identify or attach them to his notice of appeal to the district court); Fadayiro, 371 F.3d at 922 (“We
are doubtful that a notice of appeal that failed to indicate the order appealed from could nonetheless
be thought to comply with [Rule 8003(a)] ... for how could a notice that omitted such essential
information be thought to ‘conform substantially’ to the official form [as required by Rule
8003(a)]?”). We therefore review only the bankruptcy court’s order that granted the trustee’s
motion to compromise.

No. 19-2131
-4-

Grant of Trustee’s Motion to Compromise
As noted, the trustee filed a motion to compromise, in which he proposed to settle the
discrimination action filed by Bush against Lumileds for $20,000. The bankruptcy court granted
the motion.
“The bankruptcy court’s approval of a settlement agreement is reviewed for an abuse of
discretion.” In re MQVP, Inc., All F. App’x 310, 312 (6th Cir. 2012). “An abuse of discretion
occurs where the reviewing court has ‘a definite and firm conviction that the court below
committed a clear error of judgment.’” In re Wingerter, 594 F.3d 931,936 (6th Cir. 2010) (quoting
In re M. J. Waterman & Assocs., 227 F.3d 604, 607-08 (6th Cir. 2000)).
“A trustee in bankruptcy has the authority to seek a settlement of claims available to the
debtor, but any proposed settlement is subject to the approval of the bankruptcy court, which
enjoys ‘significant discretion.’” In re MQVP, Inc., All F. App’x at 312 (citing Fed. R. Bankr.
P. 9019(a); In re Rankin, 438 F. App’x 420, 426 (6th Cir. 2011)). In determining whether to
approve a settlement, the bankruptcy court must “apprise itself of the underlying facts and . ..
make an independent judgment as to whether the compromise is fair and equitable.” Reynolds v.
Comm V, 861 F.2d 469, 473 (6th Cir. 1988). Bankruptcy courts must look to the following four
factors to determine whether a compromise is fair and equitable:
(a) The probability of success in the litigation; (b) the difficulties, if any, to be
encountered in the matter of collection; (c) the complexity of the litigation involved,
and the expense, inconvenience and delay necessarily attending it; (d) the
paramount interest of the creditors and a proper deference to their reasonable views
in the premises.
In re Bard, 49 F. App’x 528, 530 (6th Cir. 2002) (quoting Drexel v. Loomis, 35 F.2d 800, 806 (8th
Cir. 1929)).
After consideration of these factors, the bankruptcy court determined that the settlement
was reasonable. This was not an abuse of discretion. As to the first factor, Bush filed six claims
against Lumileds, yet only one survived summary judgment. The only claim remaining was for
discriminatory discharge. The trustee argued that, even if successful on the claim, Bush would be
entitled to only $20,000 in damages. Bush disagreed, but, as the bankruptcy court emphasized,

No. 19-2131
-5she offered no documentation to support her claim that she would have been entitled to more than
that (e.g., through punitive damages). Ultimately, the bankruptcy court concluded, based on all of
the evidence presented, that Bush’s discriminatory discharge charge was worth $0 to $100,000 “at
most,” and that a settlement of $20,000 therefore was not unreasonable.

In doing so, the

bankruptcy court noted that a $20,000 settlement was just because (1) Bush had been making
$42,640 while employed at Lumileds, (2) Bush obtained new employment six months after her
termination at a salary of $54,080, and (3) therefore, $20,000 was in line with the salary that she
had lost during her six-month stint of unemployment.

We agree with this reasoning and

conclusion. See, e.g., In re MQVP, Inc., 477 F. App’x at 314, 316 (noting that this court “need not
make a precise determination of the outcome. . . since an exact judicial determination of the values
in issue would defeat the purpose of compromising the claim,” and finding that this factor weighed
in favor of the bankruptcy court’s approval of the settlement where, among other things, “there
was a risk that there would be no recovery at all” if the case were not settled (quoting In re Nicole
Energy Servs., Inc., 385 B.R. 201, 239 (S.D. Ohio 2008))).
As to the second factor, the bankruptcy court found that the parties presented no evidence
of any difficulty regarding collection of any judgment if the litigation continued, but it noted that
collection could be delayed if Lumileds appealed an unfavorable ruling. Bush offers no colorable
argument to challenge this finding. Rather, she argues only that it is uncertain whether Lumileds
would have appealed an unfavorable ruling, but this factor requires bankruptcy courts to assess
only the “possible difficulties of collecting on any judgment which might be obtained,” Protective
Comm, for Indep. Stockholders of TMT Trailer Ferry, Inc. v. Anderson, 390 U.S. 414, 424 (1968)
(emphasis added), and that is precisely what the bankruptcy court did here.
Regarding the third factor, the bankruptcy court determined that continuation of the
discrimination lawsuit would “likely involve complex evidentiary and legal issues” and “would
result in significant legal fees and expenses for the bankruptcy estate.” Bush offers no argument
in rebuttal. Indeed, the settlement was entered into after Bush’s discriminatory discharge claim

No. 19-2131
-6survived summary judgment and thus was set to go to trial, which certainly would have, in the
very least, been extremely costly to the bankruptcy estate.
Finally, as the trustee indicated, if the discrimination suit were settled, the creditors would
be entitled to at least $10,000 (after deduction of his fees and expenses from the $20,000
settlement). This amount was guaranteed by the settlement, whereas if the case went to trial, the
creditors potentially could be entitled to nothing.
After consideration of these factors—and Bush’s failure to meaningfully challenge the
bankruptcy court’s findings with respect to each—we find that the bankruptcy court did not abuse
its discretion when granting the trustee’s motion to compromise. See Bard, 49 F. App’x at 531
(noting that a bankruptcy court does not abuse its discretion in approving a settlement when it
“meticulously analyzed each of [the] relevant factors prior to approving the compromise request”).
Accordingly, we AFFIRM the district court’s judgment.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case 2:19-cv-11425-SFC-APP ECF No. 19, PagelD.1463 Filed 09/16/19 Page 1 of 1

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
In re:
Adrienne Bush,
Debtor.

Adrienne Bush,
Appellant

Case No. 19-11425
Honorable Sean F. Cox

v.

Bankruptcy Case No. 18-51055

Kenneth Nathan,
Appellee.

JUDGMENT
This matter comes to this Court on appeal from the United States Bankruptcy Court for the
Eastern District of Michigan. For the reasons set forth in the accompanying Opinion and Order, the
Court AFFIRMS the May 9, 2019 orders of the Bankruptcy Court.
IT IS SO ORDERED.
s/Sean F. Cox
Sean F. Cox
United States District Judge
Dated: September 16, 2019

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1450 Filed 09/16/19 Page 1 of 13

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
In re:
Adrienne Bush,
Debtor.
Adrienne Bush,
Appellant

Case No. 19-11425
Honorable Sean F. Cox

v.

Bankruptcy Case No. 18-51055

Kenneth Nathan,
Appellee.

OPINION AND ORDER
After Adrienne Bush’s bankruptcy trustee discovered her separate, then-pending employment
discrimination lawsuit, he agreed to settle it for $20,000. Unhappy with this settlement, Bush
claimed an exemption in the lawsuit and moved to convert her Chapter 7 proceeding to a Chapter
13 proceeding. The bankruptcy court (1) sustained the trustee ’ s obj ection to the claimed exemption;
(2) denied Bush’s motion to convert; and (3) granted the trustee’s motion to compromise Bush’s
employment discrimination claim. Bush now appeals these decisions. Finding no error, the Court
will affirm the bankruptcy court’s decisions.
BACKGROUND
This appeal touches on two distinct legal proceedings: Bush’s employment discrimination
lawsuit and Bush’s bankruptcy case.
First, the employment discrimination lawsuit. On May 18,2016, Adrienne Bush filed a pro
se action against her former employer, Lumileds LLC. Bush v. Lumileds, LLC, et. al., Case No. 16-

1

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1451 Filed 09/16/19 Page 2 of 13

11761 (E.D. Mich, filed on May 18, 2016). This case was assigned to United States District Court
Judge Laurie J. Michelson, who referred all pre-trial motions to Magistrate Judge Elizabeth A.
Stafford.
In her amended complaint, Bush alleged that Lumileds had discriminated against her because
she is African Amerian and had retaliated against her for reporting the discrimination, in violation
of Title VII of the Civil Rights Act of 1964 and Michigan’s Elliott-Larsen Civil Rights Act. (ECF
No. 11, PagelD 1176-1207; Case No. 16-11761, ECF No. 30). During the discovery and summary
judgment phases, Bush actively litigated her case by stipulating to a protective order (Case No. 1611761, ECF No. 38), filing two motions to extend deadlines (Case No. 16-1176, ECF Nos. 39 and
75), filing three witness lists (Case No. 16-11761, ECF Nos. 42, 74, and 84), opposing a motion to
stay(CaseNo. 16-11761, ECF No. 44), filing two motions to compel (Case No. 16-11761,ECFNo.
46 and 58), attending two status conferences, a settlement conference, and a hearing, objecting to
four orders issued by Magistrate Judge Stafford (Case No. 16-11761, ECF Nos. 53,62,86, and 88),
filing a motion for sanctions (Case No. 16-11761, ECF No. 63), amending her motion for sanctions
(Case No. 16-11761, ECF No. 70), filing a motion to strike (Case No. 16-11761, ECF No. 78),
filing a motion to amend her complaint (Case No. 16-11761, ECF No. 85), and responding to the
Lumileds’s motion for summary judgment. (Case No. 16-11761, ECF No. 79).
On July 10,2018, Magistrate Judge Stafford issued a Report and Recommendation, wherein
she recommended that summary judgment be granted in favor of Lumileds. (Case No. 16-11761,
ECF No. 89). On July 25, 2019, Bush objected to this recommended disposition. (Case No. 1611761, ECF No. 94).
Now, the bankruptcy proceeding comes into play. On August 9,2018, Bush filed a petition

2

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1452 Filed 09/16/19 Page 3 of 13

for bankruptcy relief under Chapter 7 of the Bankruptcy Code. (ECF No. 11, PagelD 954-971).
Bush’s bankruptcy case was assigned to United States Bankruptcy Court Judge Maria L. Oxholm,
and Appellee Kenneth Nathan was appointed as trustee of Bush’s bankruptcy estate. On August 22,
2018, Bush filed her Schedules and Statement of Financial Affairs. (ECF No. 11, PagelD 977-1025).
In Part 3 of Schedule A/B, Bush was asked, “Do you own or have any legal or equitable interest in
any of the following items?” Item 33 of this part described “Claims against third parties, whether
or not you have filed a lawsuit or made a demand for payment.” (ECF No. 11, PagelD 989). Item
33 offered several examples, including “accidents, employment disputes, insurance claims or rights
to sue.” Id. (emphasis added). Despite actively litigating her pending employment discrimination
claims for the previous two years, Bush checked the “No” box in response to Item 33 .Id.
Similarly, in her Statement of Financial Affairs, Bush failed to list her employment
discrimination lawsuit in response to the question, “Within 1 year before you filed for bankruptcy,
were you a party in any lawsuit, court action, or administrative proceeding.” (ECF No. 11, PagelD
1017). And, at a September 12, 2018 creditors’ meeting, Bush responded “No” to the question
“Have you sued anybody in the last five years?” (ECF No. 11, PagelD 1108).
Back to the employment action. On September 26, 2018, Judge Michelson adopted Judge
Stafford’s recommendation “save for her recommendation to grant Lumileds summary judgment on
Bush’s discriminatory discharge claims under Title VII and ELCRA.” (Case No. 16-11761, ECF No.
105, PagelD 3519). Inotherwords, only Bush’s discriminatory discharge claims survived summary
judgment.
Now the employment action and the bankruptcy proceeding meet. On October 3, 2018,
Lumiled’s counsel contacted Trustee Nathan and informed him of Bush’s employment lawsuit.

3

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1453 Filed 09/16/19 Page 4 of 13

Nathan evaluated Bush’s remaining claims and agreed to settle the case for $20,000.
This proposed settlement did not sit well with Bush. On January 3, 2019, Bush filed a
motion to convert her Chapter 7 proceeding to a Chapter 13 proceeding (ECF No. 11, PagelD 1042)
and amended her schedules. (ECF No. 11, PagelD 1051). In her amended Schedule A/B, she
identified the employment discrimination case and, in her amended Schedule C, she claimed it as
exempt under 11 U.S.C. § 522(d)(l 1)(E). (ECF No. 11, PagelD 1064). Nathan opposed the motion
to convert and filed an objection to the amended exemption. The United States Trustee also opposed
both of Bush’s filings.
On March 11,2019, Nathan filed a motion to approve the compromise of Bush’s remaining
employment discrimination claims against Lumileds. (ECF No. 11, PagelD 1170-1175). In his
motion, Nathan described, in detail, why he concluded that it was in the estate’s best interest to settle
the case for $20,000. First, he noted that Bush had “expressly disclaimed the intent to seek any
damages for the time period following the termination of her employment or emotional distress
damages... and as a pro se plaintiff, [Bush] is not entitled to attorneys’ fees.” (ECF No. 11, PagelD
244). Then, he noted that Bush had found new, more lucrative employment only six months after
she had been discharged and that “had [Bush] remained employed with Lumileds during that sixmonth period, she would have received approximately $20,000 in base salary-the amount of the
proposed settlement at issue.” (ECF No. 11, PagelD 1174). Nathan concluded that “[t]he proposed
settlement, therefore, is more than reasonable as it represents the amount of damages the estate could
be awarded if it were to prevail on the sole remaining civil claim at trial, which is far from certain
and would be costly for the estate to pursue.” Id.
Bush filed a response to the motion to approve compromise of claim, arguing that “[t]he

4

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1454 Filed 09/16/19 Page 5 of 13

settlement is not reasonable and furthermore should be denied because the debtor is no longer within
the Chapter 7, the stated exemption is valid, this will not satisfy the debtors [sic] creditors and the
Trustee entered this settlement in bad faith.” (ECF No. 11, PagelD 1336).
On May 9,2019, the bankruptcy court issued a bench opinion on (1) the trustee’s objection
to Bush’s amended schedules (2) Bush’s motion to convert her proceeding to Chapter 13, and (3)
the trustee’s motion to compromise claim.
First, the bankruptcy court sustained Trustee Nathan’s objection to Bush’s amended
schedules. The court began by noting that 11 U.S.C. 522(d)(l 1)(E) only exempts a debtor’s right
to receive property that is traceable to “a payment in compensation of loss of future earnings of the
debtor or an individual of whom the debtor is or was a dependent to the extent reasonably necessary
for the support of the debtor and any dependent of the debtor.” Because Bush’s lawsuit did not
include a claim for lost future earnings (which Bush had acknowledged, on the record, three separate
times), the court concluded that Bush was not entitled to her requested exemption.
Next, the bankruptcy court denied Bush’s motion to convert her case to a Chapter 13
proceeding, concluding that Trustee Nathan had presented sufficient evidence of a lack of good faith
on Bush’s part. The court noted that Bush had repeatedly failed to disclose the lawsuit after being
prompted to do so. Considering her active, contemporaneous participation in the lawsuit, the court
found that Bush’s explanation for this omission was “disingenuous” and “simply not believable.”
(ECF No. 11, PagelD 1360). The court concluded that Bush “intentionally failed to disclose the
lawsuit in a deliberate attempt to keep it out of hdr bankruptcy.” Id. The court further found that the
amount and length of repayment [in Bush’s proposed Chapter 13 plan] suggests a lack of good
faith,” (ECF No. 11, PagelD 1362), and that her proposed plan was “not in the best interest of

5

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1455 Filed 09/16/19 Page 6 of 13

creditors.” (ECF No. 11, PagelD 1363). The court also found that “conversion would further an
abuse of the bankruptcy process” because “[i]t appears that [Bush] is seeking to convert solely to
prevent the trustee from administering the lawsuit.” Id. For all these reasons, the bankruptcy court
concluded that Bush “has not filed her motion to convert in good faith.” Id.
Finally, the bankruptcy court granted Nathan’s motion to compromise. Applying the
principles outlined in Protective Comm, for Indep. Stockholders of TMT Trailer Ferry, Inc. v.
Anderson, 390 U.S. 414 (1968) (“Anderson”), the court concluded that the $20,000 settlement was
reasonable. (ECF No. 11, PagelD 1366).
On May 14, 2019, Bush filed an appeal, asking this Court to reverse the bankruptcy court’s
May 9, 2019 orders. (ECF Nos. 1 and 15). Nathan filed a brief in opposition on August 20,2019.
(ECF No. 14).
ANALYSIS
I.

Jurisdiction
At the outset, the Court must determine which May 9, 2019 orders it has jurisdiction to

review. Nathan argues that the order granting the motion to compromise is the only one properly
before the Court because Bush’s “Notice of Appeal and Statement of Election states the Settlement
Approval Order is the ‘order . . . appealed from,’ and it does not identify, designate, or attach any
other bankruptcy court order.” (ECF No. 15, PagelD 1432); see also Fed. R. Bankr. P. 8003(a)(3)
(“The notice of appeal must... be accompanied by the judgment, order, or decree, or the part of it,
being appealed . ..”).
Throughout Bush’s brief, she makes it clear that she intends to appeal all three of the
bankruptcy court orders issued on May 9, 2019. (ECF No. 14, PagelDs 1410-1414). Although

6

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1456 Filed 09/16/19 Page 7 of 13

Bush’s notice of appeal does not strictly comply with the Court’s filing requirements, those
shortcomings do not deprive the Court ofjurisdiction to hear an appeal of the non-designated May
9, 2019 orders. Fadayiro v. Ameriquest Mortg. Co., 371 F.3d 920, 922 (7th Cir. 2004); see also In
re Thomas, 2011 WL 3706669 at *8, n. 1 (E.D. Mich. 2011). Because the issues related to the
bankruptcy court’s other two May 9,2019 orders were adequately addressed by both parties in their
briefs on appeal, the Court will consider these issues.
II.

Nathan’s Objection to the Amended Schedules
Bush first challenges the bankruptcy court’s decision to sustain Trustee Nathan’s objection

to her amended schedules. Whether a bankruptcy exemption applies is a legal conclusion, which
is reviewed de novo. In re Lawless, 591 Fed.App’x. 415, 417 (6th Cir. 2014).
“When a debtor files a bankruptcy petition, all of [her] property becomes property of the
bankruptcy estate.” Taylor v. Freeland & Kronz, 503 U.S. 638, 642 (1992). However, the
Bankruptcy Code “allows a debtor to prevent the distribution of certain property by claiming it as
exempt.” Id. Under 11 U.S.C. § 522(1), a debtor must file a list of property that he or she wishes to
exempt from the bankruptcy estate. Section 522(d) “lists 12 categories of property that a debtor may
claim as exempt.” Schwab v. Reilly, 560 U.S. 770, 782 (2010). “Exemptions should be liberally
construed in favor of the debtor.” In re Brown, 391 B.R. 210, at *5 (Table) (6th Cir. BAP 2008).
Here, Bush claimed an exemption in her employment lawsuit under Section 522(d)(l 1)(E),
which exempts “[t]he debtor’s right to receive, or property that is traceable to ... a payment in
compensation for loss of future earnings of the debtor or an individual of whom the debtor is or was
a dependent, to the extent reasonably necessary for the support of the debtor and any dependent of
the debtor.” Trustee Nathan objected to Bush’s exemption and therefore bears the burden of proving

7

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1457 Filed 09/16/19 Page 8 of 13

that the lawsuit is not exempt under Section 522(d)(l 1)(E). See Fed. R. Bankr. P. 4003(c).
The Court agrees with the bankruptcy court that Nathan has satisfied his burden here. Most,
if not all, of the cases discussing exemptions taken under this section involve “discrete, sum certain
payments to compensate for the debtor’s loss of future earnings that are made pursuant to some
agreement, award, or judgment.” In re Merillat, 2014 WL 1846105 at *9 (E.D. Mich. 2014). No
such payment exists here.

In fact, Bush expressly acknowledged—three times—that her

employment suit did not include a claim for lost future earnings. (ECF No. 11, PagelD 1350) (the
bankruptcy court noting that, at a March 5, 2019 hearing, Bush “acknowledged that the District
Court lawsuit did not include a claim for future earnings.”); (ECF No. 11, PagelD 1158) (a letter
from Bush to Lumileds’s counsel stating that “[t]he First Amended Complaint is not for any
damages after my employment termination.”); (ECF No. 11, PagelD 1162) (an order from
Magistrate Judge Stafford stating that “Bush confirmed during the December 11 telephonic
conference that she is not seeking damages for front pay or mental distress.”).
Bush might be arguing that whatever award she would have received from the employment
lawsuit is “future earnings” in that it would be money that she would have received in the future.
(ECF No. 14, pagelD 1410) (“Being that the debtor has not received nor negotiated an award, this
can only be assumed as future earnings because it has been over three years since the initial filing.”)
If so, she misunderstands the concept of “future earnings.” If Bush had succeeded in her
employment lawsuit, she would have received only the wages that she would have earned at
Lumileds during the time that she was unemployed. In other words, she would have been
compensated for a harm that occurred in the past (i.e. lost earnings), not one that will occur in the
future (i.e. lost future earnings). Because the employment suit did not include a claim for lost future

8

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1458 Filed 09/16/19 Page 9 of 13

earnings, Section 522(d)(l 1)(E) does not apply. The bankruptcy court correctly sustained Nathan’s
objection and denied the claimed exemption.
III.

Motion to Covert to Chapter 13
Bush next challenges the bankruptcy court’s decision to deny her motion to convert to a

Chapter 13 proceeding. The court denied this motion because it found that the motion had been
brought in bad faith. Such a finding is reviewed for clear error, and will be disturbed only when “the
reviewing court on the entire evidence is left with the definite and firm conviction that a mistake has
been committed.” In re Alt, 305 F.3d 413, 422 (6th Cir. 2002).
Under 11 U.S.C. §706(a), a “debtor may convert a case under this chapter to a case under
Chapter 11, 12, or 13" if a case has not previously been converted from one of those chapters.
However, the Sixth Circuit has held that a debtor’s right to convert under Section 706(a) is not
absolute, and may be denied in the absence of good faith. In re Copper, 426 F.3d 810, 815 (6th Cir.
2005). “[I]f, upon review of the facts, the bankruptcy court finds that the debtor’s request for
conversion was made in bad faith, or represents an attempt to abuse the bankruptcy process, the
court may deny the requested conversion.” Id. (quoting In re Copper, 314 B.R. 628, 636 (6th Cir.
BAP 2008)).
Here, a review of the record readily supports the bankruptcy court’s finding of bad faith.
Despite actively litigating her employment lawsuit for two years (including filing a reply brief a
little more than a week before filing for bankruptcy), Bush repeatedly failed to disclose its existence.
She failed to mention it in her schedules and affirmatively denied its existence at the creditors’
meeting. Only after Lumileds’s counsel informed Trustee Nathan about the employment suit did
Bush move to convert her proceeding to Chapter 13. This timing strongly suggests that her motion

9

Case 2:19-cv-11425-SFC-APP ECF No. 18, PageiD.1459 Filed 09/16/19 Page 10 of 13

to convert was not an honest effort to repay creditors, but rather a last-ditch effort to keep her
interest in the lawsuit out of her bankruptcy estate. And her proposed Chapter 13 plan fell well short
of satisfying her debts and could not compete with the amount of the proposed settlement. In sum,
the record clearly supports the bankruptcy court’s conclusions that Bush’s motion was brought in
bad faith and that to grant this motion would have been to “further an abuse of the bankruptcy
process.”
IV.

Motion to Compromise Claim
Finally, Bush appeals the bankruptcy court’s approval of the $20,000 settlement agreement.

A bankruptcy court's approval of a settlement agreement is reviewed for an abuse of discretion.
Lyndon Prop. Ins. Co. v. E. Ky. Univ., 200 Fed.Appx. 409,413 (6th Cir.2006). “A court abuses its
discretion when it commits a clear error ofjudgment, such as applying the incorrect legal standard,
misapplying the correct legal standard, or relying upon clearly erroneous findings of fact.” Jones v.
III. Cent. R.R. Co. ,617 F.3d 843, 850 (6th Cir. 2015). In other words, an abuse of discretion occurs
when the reviewing court has a “definite and firm conviction that the [bankruptcy] court committed
a clear error of judgment.” Hall v. Liberty Life Assur. Co. of Boston, 595 F.3d 270, 275 (6th Cir.
2010).
A bankruptcy trustee “has the authority to seek a settlement of claims available to the debtor,
but any proposed settlement is subject to the approval of the bankruptcy court, which enjoys
significant discretion.”//! reMQVP, Inc., All Fed.App’x 310,312 (6th Cir. 2012) (internal citations
omitted); see also Fed. R. Bankr. P.9019. Although “[t]he law favors compromise and not litigation
for its own sake,” the bankruptcy court “may not rubber stamp the agreement or merely rely upon
the trustee’s word that the settlement is reasonable.” Id. (citations omitted). Rather, “the bankruptcy

10

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1460 Filed 09/16/19 Page 11 of 13

court is charged with an affirmative obligation to apprise itself of the underlying facts and to make
an independent judgment as to whether the compromise is fair and equitable.” Reynolds v. C.I.R.,
861 F.2d 469,473 (6th Cir. 1988).
In Anderson, the Supreme Court set forth “general factors” that a bankruptcy judge must
consider in determining whether a proposed settlement is fair and equitable:
There can be no informed and independent judgment as to whether a proposed
compromise is fair and equitable until the bankruptcy judge has apprised himself of
all facts necessary for an intelligent and objective opinion of the probabilities of
ultimate success should the claim be litigated. Further, the judge should form an
educated estimate of the complexity, expense, and likely duration of such litigation,
the possible difficulties of collecting on any judgment which might be obtained, and
all other factors relevant to a full and fair assessment of the wisdom of the proposed
compromise. Basic to this process in every instance, of course, is the need to
compare the terms of the compromise with the likely rewards of litigation.
Anderson, 390 U.S. at 424-25. The Sixth Circuit has distilled the Supreme Court’s Anderson
guidance into four specific factors for the bankruptcy court to consider: “(a) the probability of
success in litigation; (b) the difficulties, if any, to be encountered in the matter of collection; (c) the
complexity of the litigation involved, and the expense, inconvenience and delay necessarily
attending it; [and] (d) the paramount interest of the creditors and a proper deference to their
reasonable views in the premises.” MQVP, 477 Fed.Appx. at 313.
The bankruptcy court applied these four factors in this case. As to the first factor, the court
found that, even if Bush succeeded on her remaining claims, she would only be entitled to about
$20,000. (ECF No. 11, PagelD 1365). As to the second factor, the court concluded that “there has
been no evidence presented regarding the difficulty of collection” but noted that “collection could
be delayed if Lumileds appealed an unfavorable ruling.” (ECF No. 11, PagelD 1366). As to the
third factor, the court found that continuing the employment lawsuit “would likely involve complex

11

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1461 Filed 09/16/19 Page 12 of 13

evidentiary and legal issues,” which would result in “significant legal fees and expenses for the
bankruptcy estate.” (ECF No. 11, PagelD 1365). And as to the fourth factor, the court concluded
that, under the settlement, “[a]t a minimum, $10,000 would be available to creditors.” (ECF No. 11,
PagelD 1366). Evaluating all of these factors, the court concluded that the settlement was
reasonable.
In reaching this conclusion, the bankruptcy court correctly applied the appropriate legal
standards to the facts before it. Nothing in the record suggests that the bankruptcy court abused its
discretion, and this Court does not have a “definite and firm conviction that the [bankruptcy] court
committed a clear error of judgment.” Hall, 595 F.3d at 275. Indeed, the record shows that Bush’s
bankruptcy estate received roughly the best award it could hope to get, without having to face the
risk or expense of further litigation.

This settlement was undoubtedly fair and equitable.

Accordingly, Bush’s appeal of this order is meritless.
V.

Other Issues Raised on Appeal
In passing, Bush raises several other issues on appeal that are not directly related to the May

9, 2019 orders. She complains that the bankruptcy court denied “her basic rights,” held her to a
different standard than it held Trustee Nathan, and showed her “pure disdain.” But she does not
substantiate these claims, and the Court has found no support for these allegations during its own
review of the record. She argues that the bankruptcy court did not fully consider the value of her
severance package because it used an outdated version of the complaint from her employment
lawsuit. But she overlooks the fact that the court did consider the value of her severance package,
even though it was not actually part of her employment lawsuit. (ECF No. 11, PagelD 1365-1366).
She vaguely alleges that the bankruptcy court “erred in Court procedures,” but does not specify

12

Case 2:19-cv-11425-SFC-APP ECF No. 18, PagelD.1462 Filed 09/16/19 Page 13 of 13

what procedure was broken or how. Other complaints actually stem from Bush’s interactions with
one of her creditors, James Demers. And more still derive from the bankruptcy court’s denial of her
motion to reconsider lifting a stay, which was the subject of a previously dismissed bankruptcy
appeal, see In re Bush, Case No. 18-13004 (E.D. Mich, filed September 26, 2018), and is not
properly before the Court. None of these arguments has merit, or casts any doubt on the propriety
of any of the orders being appealed now.
CONCLUSION
For the reasons above, the Court ORDERS that the bankruptcy court’s May 9,2019 orders
are AFFIRMED.
IT IS SO ORDERED.
s/Sean F. Cox
Sean F. Cox
United States District Judge
Dated: September 16, 2019

13

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF MICHIGAN”
SOUTHERN DIVISION
In Re:
ADRIENNE BUSH,

Case No. 18^51055-MLO
.Chapter 7
HON. MARIA,L. OXHOLM

Debtor.
/

ORDER DENYING DEBTOR'S MOTION TO CONVERT FROM CHAPTER 7 TO
CHAPTER 13
For the reasons stated on the record on 5/9/2019, the Debtor's
Motion to Convert from Chapter 7 to Chapter 13 [Docket No. 70] is
denied.
(

IT IS SO ORDERED.

Signed on May 09,2019
M Maria L. Oxholm
Maria L. Oxholm
United States Bankruptcy Judge

i

1

18-51055-mlo

Doc 124 Filed 05/09/19

Entered 05/09/19 16:06:46

Page 1 of 1

UNITED STATES BANKRUPTCY COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
In Re:
ADRIENNE BUSH,

Case No. 18-51055-MLO
Chapter 7
HON. MARIA L. OXHOLM

Debtor.
/

ORDER GRANTING CHAPTER 7 TRUSTEE'S OBJECTION TO DEBTOR'S
AMENDED CLAIMS OF EXEMPTIONS
For
Trustee's

the

reasons

Objection

stated
to

on

the

Debtor's

record

Amended

on

Claims

5/9/2019,
of

the

Exemptions

[Docket No. 84 and supplemental Docket No. 104] is granted.
IT IS SO ORDERED.

Signed on May 09, 2019

ti

V
■Mfl

Is/ Maria L. Oxholm
Maria L. Oxholm
United States Bankruptcy Judge

1

18-51055-mlo

Doc 126

Filed 05/09/19

Entered 05/09/19 16:08:09

Page 1 of 1

UNITED STATES BANKRUPTCY COURT FOR
THE EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
In re:

Case No. 18-51055-mlo
Chapter 7

Adrienne Bush,
Debtor.

Hon. Maria L. Oxholm

Daniel M. McDermott, United
States Trustee,

Adversary Case No. 18-4529

Plaintiff,

V.

Adrienne Bush,
Defendant.
ORDER DENYING DISCHARGE OF DEBTOR UNDER 11 U.S.C. § 727
THIS MATTER came before the Court on the present stipulation between the
United States Trustee and Debtor Adrienne Bush. Nothing in this Order prohibits the Debtor's
ability to obtain a discharge in Chapter 13 under 11 U.S.C. § 1328. The Court is otherwise
fully advised in this matter.
NOW, THEREFORE,
IT IS ORDERED that a discharge under 11 U.S.C. § 727(a)(l 0) with respect to
Debtor Adrienne Bush is DENIED and shall not issue.
Signed on March 01,2019
/s/ Maria L. Oxholm
Maria L. Oxholm
United States Bankruptcy Judge

18-51055-mlo

Doc 106

Filed 03/01/19

Entered 03/01/19 14:58:55

Page 1 of 1

